<html>
<title> - NOMINATIONS OF RON A. BLOOM, ROMAN MARTINEZ IV, JAMES A. CROWELL IV, AND JASON PARK</title>
<body><pre>[Senate Hearing 116-60]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 116-

                      NOMINATIONS OF RON A. BLOOM,
         ROMAN MARTINEZ IV, JAMES A. CROWELL IV, AND JASON PARK

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

       NOMINATIONS OF RON A. BLOOM TO BE A GOVERNOR, U.S. POSTAL
        SERVICE, ROMAN MARTINEZ IV TO BE A GOVERNOR, U.S. POSTAL
         SERVICE, JAMES A. CROWELL IV TO BE AN ASSOCIATE JUDGE,
       SUPERIOR COURT OF THE DISTRICT OF COLUMBIA, AND JASON PARK
  TO BE AN ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                             APRIL 2, 2019

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-305PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="acdcc3eccfd9dfd8c4c9c0dc82cfc3c182">[email&#160;protected]</a>            
        
        
    
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
   Courtney J. Rutland, Deputy Chief Counsel for Governmental Affairs
           Helen M. Heiden, Senior Professional Staff Member
              Jennifer L. Selde, Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
      Ashley E. Poling, Minority Director of Governmental Affairs
                 Claudine J. Brenner, Minority Counsel
       Annika W. Christensen, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     2
    Senator Hawley...............................................    15
    Senator Carper...............................................    18
    Senator Lankford.............................................    21
Prepared statements:
    Senator Johnson..............................................    31
    Senator Peters...............................................    32
    Hon. Eleanor Holmes Norton...................................    33

                               WITNESSES
                         Tuesday, April 2, 2019

Ron A. Bloom to be a Governor, U.S. Postal Service
    Testimony....................................................     3
    Prepared statement...........................................    35
    Biographical and financial information.......................    37
    Letter from the Office of Government Ethics..................    59
    Responses to pre-hearing questions...........................    64
    Responses to post-hearing questions..........................    90
Roman Martinez IV to be a Governor, U.S. Postal Service
    Testimony....................................................     5
    Prepared statement...........................................    96
    Biographical and financial information.......................    98
    Letter from the Office of Government Ethics..................   113
    Responses to pre-hearing questions...........................   118
    Responses to post-hearing questions..........................   140
James A. Crowell IV to be an Associate Judge, Superior Court of 
  the District of Columbia
    Testimony....................................................     6
    Prepared statement...........................................   147
    Biographical and financial information.......................   149
Jason Park to be an Associate Judge, Superior Court of the 
  District of Columbia
    Testimony....................................................     8
    Prepared statement...........................................   177
    Biographical and financial information.......................   179

                                
                                APPENDIX

Board of Governors Chart.........................................   199
U.S. Postal Service Income Statement Chart.......................   200
Statements for the Record from:
    Mayor Muriel Bowser..........................................   201
    Coalition for a 21st Century Postal Service..................   203

 
                      NOMINATIONS OF RON A. BLOOM,
         ROMAN MARTINEZ IV, JAMES A. CROWELL IV, AND JASON PARK

                              ----------                              


                         TUESDAY, APRIL 2, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Ron Johnson 
presiding.
    Present: Senators Johnson, Lankford, Romney, Scott, Hawley, 
Peters, Carper, Hassan, and Sinema.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good afternoon. This hearing is called to 
order.
    I want to first of all welcome the nominees. Thank you for 
your willingness to serve. Welcome to your families, and I will 
ask you to introduce them during your opening comments. One 
thing we find, very quickly, in government service is it really 
is a family affair. These jobs are often very time-consuming so 
your families see a little bit less of you. Hopefully you can 
find time for your families. But again, I want to thank all of 
you and your families for that willingness to service.
    Now we are meeting to consider four nominations, two 
nominees to be Governors to the U.S. Postal Service (USPS), two 
nominees to be Associate Judges on the Superior Court of the 
District of Columbia.
    I just ask that my prepared statement be entered into the 
record,\1\ and I have just a couple of charts to show you why 
we are, first of all, focusing on the Board of Governors. The 
first one will be the blue graph.\2\ And the next chart will be 
kind of the 10-year income statement of the Postal Service,\3\ 
you see the financial difficulty it is in. The fact that we do 
not have a quorum of Board of Governors is really 
unconscionable, and one of the things we will be talking about 
in questions for the two nominees for Board of Governors is 
just the very--you can leave the income statement up there--
just the difficult nature of the financial condition.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 31.
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 199.
    \3\ The chart referenced by Senator Johnson appears in the Appendix 
on page 200.
---------------------------------------------------------------------------
    To a certain extent it was interested in our hearing on the 
Postal Task Force, a lot of this financial crisis was really 
sparked by the 2006 Postal reform, which required prefunding 
where the postal system did not have the funds to do it. Now we 
are talking about, well, maybe ought to recalculate what that 
annuity ought to be or, how to amortize the pension liability. 
So it is a mess. We need Governors to actually serve as a board 
of directors because a 535-member board of directors does not 
work all that well.
    I want to thank the nominees. I look forward to your 
testimony and your answers to our questions, and with that I 
will turn it over to Ranking Member Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Well, thank you, Chairman Johnson, and 
thank you to our nominees for being here today and for your 
willingness to serve in these positions.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 32.
---------------------------------------------------------------------------
    Today we are considering two nominees to serve on the 
United States Postal Service Board of Governors and two 
nominees to serve as Associate Judges on the Superior Court for 
the District of Columbia. The D.C. Superior Court and the U.S. 
Postal Service Board of Governors perform certainly very 
different functions but both are critically important to the 
communities that they serve. Both have also faced a common 
challenge in recent years--too many empty seats. Prolonged 
vacancies on the D.C. bench slow the Administration of justice 
and for years vacancies on the Postal Board of Governors have 
prevented the board from tackling the immense financial and 
operational challenges now facing the Postal Service.
    Mr. Bloom and Mr. Martinez, if you are both confirmed, the 
Postal Service Board of Governors will have a quorum for the 
first time since 2014, which is quite a crucial step forward in 
helping the Postal Service address its significant daily 
challenges.
    Although Congress must take on the challenge of passing 
bipartisan postal reforms, we will have to rely on and work 
closely with the Board of Governors to ensure the Postal 
Service continues to be a vital public service for every 
community, business, and household all across this country.
    Mr. Chairman, I am very pleased that we are holding this 
hearing today and moving one step closer to a fully functioning 
Board of Governors. As you know, seven of the nine Senate-
confirmed seats on the Board of Governors are currently vacant, 
which means that after today we will still have a whole lot of 
work to do to get qualified nominees confirmed and serving on 
this board.
    I would also like to thank you for honoring this 
Committee's tradition of considering nominees for the board in 
a bipartisan pair. I look forward to working together to 
continue that tradition while moving qualified nominees through 
the process as quickly as possible.
    Mr. Park and Mr. Crowell, you have each demonstrated a 
long-standing commitment to public service. Throughout the 
nomination process, this Committee has heard nothing but praise 
of your legal abilities and professionalism and I look forward 
to hearing from each of the nominees here today.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thanks, Senator Peters. It is the 
tradition of this Committee to swear in witnesses, so if you 
will all stand and raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Bloom. I do.
    Mr. Martinez. I do.
    Mr. Crowell. I do.
    Mr. Park. I do.
    Chairman Johnson. Please be seated.
    Our first nominee is a nominee to be the Governor of the 
U.S. Postal Service, Ron Bloom. Mr. Bloom is the Vice Chairman 
of Brookfield Asset Management. He previously served at the 
U.S. Treasury and the White House as an advisor on automotive 
and manufacturing policy under President Obama and has over 30 
years of business and labor experience. Mr. Bloom.

TESTIMONY OF RON A. BLOOM,\1\ NOMINATED TO BE A GOVERNOR, U.S. 
                         POSTAL SERVICE

    Mr. Bloom. Chairman Johnson, Ranking Member Peters, and 
Members of the Committee, thank you for considering my 
nomination to serve on the Board of Governors of the United 
States Postal Service. It is a great honor to be considered and 
if confirmed I can assure you that I will work diligently to 
help guide this vital American institution in adapting to its 
fast-changing environment and many challenges.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bloom appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    Since before the Nation's birth, the Postal Service has 
played a vital role as the backbone of America's delivery 
infrastructure. While changing times demand changing solutions, 
the core mission of providing affordable access to its network 
to all Americans, is as relevant today as it has always been.
    I believe that my background and experience equip me to 
play a meaningful role in meeting the Postal Service's 
challenges and positioning it for the future.
    In addition to my master's of business administration with 
distinction from Harvard, my 40 years in the workforce have 
provided me with what I believe are a distinct and relevant set 
of experiences and perspectives. My work has been equally 
balanced between business, where I have worked in investment 
banking and private equity, and work for labor unions, with 
just over 2\1/2\ years of service for the Federal Government.
    My time in investment banking included two stints doing 
financial advisory and restructuring work at Lazard as well as 
founding and building a boutique advisory firm. For the last 3 
years I have worked in private equity, where I am Vice-Chair 
and Managing Partner in Brookfield Asset Management's Private 
Equity business. Brookfield is one of the largest alternative 
asset managers in the world, with over $350 billion of assets 
under management and places significant focus on being good, 
responsible stewards of businesses.
    My work for labor unions included time with the Service 
Employees and the Steelworkers. At the Steelworkers Union, I 
helped the union to navigate dramatic changes in its core 
jurisdiction as well as developing partnerships with Wall 
Street investors. My time at the Federal Government included 
work at the Treasury Department helping to lead the 
restructuring of the auto industry and at the White House as 
Assistant to the President for Manufacturing Policy.
    In each of those settings my focus has been on designing 
and leading positive and creative multi-faceted changes to the 
strategy, operations and finances of complex large 
organization. Whether it was the problems facing the Nation's 
largest steel companies, tire manufacturers, the auto industry 
or the city of Detroit, I have been able to craft solutions 
that balanced multiple legitimate needs and moved the affected 
organization forward.
    The Postal Service faces many challenges. It must adapt 
itself to the enormous changes regarding the demand for and 
nature of its products. It must continue to play its role as 
the backbone of the Nation's delivery infrastructure. And it 
must honor its obligations and commitments by developing and 
implementing a plan that meets the needs of its customers and 
ensures long-term financial viability, all without requiring 
direct taxpayer assistance.
    To do this, the Postal Service must take advantage of its 
most valuable asset--the size and density of its network. Any 
change that reduces delivery frequency and convenience will 
need to weigh carefully any forecasted direct cost savings 
against both the potential loss of revenue and customers who 
use the service precisely because of the attributes of its 
network. That said, the USPS cannot ignore the long-term 
inexorable decline of First-Class Mail and that successfully 
transitioning to a greater focus on package delivery requires 
rethinking many of its historical approaches. Add to that the 
obligations of the Universal Service Obligation (USO) and the 
need to meet the concerns of rural communities and you have a 
devilishly complex balancing act.
    I believe that the Board of Governors has an important role 
to play here. Working within the legal and regulatory framework 
set by the Congress and the Postal Regulatory Commission (PRC), 
I see the Board's job as working with Postal Service management 
to develop a strategic plan that would allow the USPS to 
fulfill its mission, meet its obligations, and achieve long-
term operational and financial viability and to provide 
oversight, support, and guidance of and to the management as 
they carry out that plan.
    I believe that each Governor is responsible for 
contributing his or her best ideas and to work constructively 
with the other Governors to do our job. I expect that there 
will often be spirited debate. There are no easy answers for 
the Postal Service and a wide variety of relevant perspectives. 
But I am confident that if I am given the opportunity to serve, 
I can work with my fellow Governors to chart a positive path 
forward for this important American treasure.
    Thank you very much and I would be happy to take questions 
at the appropriate time.
    Chairman Johnson. Thank you, Mr. Bloom.
    Our second nominee to be Governor at the U.S. Postal 
Service is Roman Martinez. Mr. Martinez currently serves on the 
Board of Directors for Cigna Corporation and Orbital Alliant 
Techsystems (ATK). He has nearly 50 years of business 
experience including his role as former Managing Director for 
Lehman Brothers and has 20 years of experience serving on 
various corporate boards of directors. Mr. Martinez.

TESTIMONY OF ROMAN MARTINEZ IV,\1\ NOMINATED TO BE A GOVERNOR, 
                      U.S. POSTAL SERVICE

    Mr. Martinez. Thank you, Mr. Chairman. Chairman Johnson, 
Ranking Member Peters, and Committee Members, thank you for 
considering my nomination as a Governor of the U.S. Postal 
Service. If I may take advantage of your kind invitation I 
would like to introduce some of my family members here with 
me--my wife, Helena, of 44 years, sitting behind me; my son, 
Roman; my Oklahoman daughter-in-law, Dace; and my terrific 
grandson, Rommy. Thank you for that opportunity, sir.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Martinez appears in the Appendix 
on page 96.
---------------------------------------------------------------------------
    As a boy, I emigrated from Cuba in 1960, to our great 
country. I am grateful for all the opportunities this country 
has given me. If confirmed, it would be a privilege to serve 
the Nation.
    Let me tell you a bit about my background. Arriving from 
Cuba, we lived in Miami before I headed to Massachusetts for 
high school and then Boston College. After earning a Master of 
Business Administation (MBA) at Wharton, I worked in New York 
as an investment banker for 32 years. I became a partner of 
Lehman Brothers in 1978, at the age of 30, and was involved in 
most aspects of investment banking until retiring in 2003, when 
my wife and I became Florida residents.
    Since 2004, I have served on several corporate boards. At 
Cigna, currently, I chair the board's audit committee and serve 
on the finance and executive committees as well. I qualify as 
an ``audit committee financial expert,'' as defined by the 
Securities and Exchange Commission (SEC).
    For over 20 years, I have also served on nonprofit 
organizations, including serving as Vice Chairman of the 
Investment Advisory Council of Florida, which required Florida 
Senate confirmation. I currently serve as trustee of New York-
Presbyterian Hospital and as an overseer of the International 
Rescue Committee.
    For over 200 years, the Postal Service has effectively 
served the entire country, but recently it has faced severe 
challenges. The digital revolution and rigid mandates have 
placed it in virtual insolvency. Its business model is not 
viable but its function remains vital. The Postal Service is in 
dire need of restructuring.
    If confirmed, I would immerse myself in a deep analysis of 
the root issues. I will follow the same approach that I took 
throughout my banking career, and which I continue to do as a 
board member. I will keep an open mind. I will learn as much as 
I can. I will consult broadly and consider as many points of 
view as possible, and I will do my very best to propose 
practical solutions consistent with the Postal Service's 
Universal Service Obligation.
    Based on my experience, however, I will respectfully offer 
some preliminary observations now, that given the introductory 
comments by both the Chairman and the Ranking Member, might be 
singing to the choir. But it is very important to make 
observations regarding the structure of the Postal Service 
board, which I believe is extremely important.
    As you know, Congress established the board to include nine 
independent members, but as of today there are only two, and 
one is up for reconfirmation this year. For years the board had 
no Governors and it lacked a quorum for even longer. It is 
critical that the board be appropriately constituted. Lacking a 
quorum is crippling, but the problem goes beyond that.
    My experience as a board member has taught me that an 
effective board must include individuals with relevant 
expertise and experience and with backgrounds representative of 
key constituencies. A diverse group is critical to provide 
effective advice and counsel.
    Further, it is essential for a board to be at full strength 
so that its important committees, such as those addressing 
enterprise risk, human resources (HR), audit, and increasingly 
information technology (IT) and cybersecurity, can provide 
effective oversight.
    Also, Governors must be able to serve long enough to 
acquire in-depth knowledge of the organization and to establish 
relationships with fellow board members and management which 
are essential to build the trust and respect required for 
candid discussions.
    The Senate has an invaluable constitutional role in 
providing advice and consent on Presidential appointments. The 
vetting of qualifications and potential conflicts are 
essential. But for positions like these, which are not full-
time and where diverse backgrounds and experience is desirable, 
I would respectfully urge Congress and the President to work 
together to streamline the process in whatever way possible.
    In closing, I would like to express again my appreciation 
for being considered and I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Martinez.
    Our next nominee has been nominated to be an Associate 
Judge, Superior Court of the District of Columbia, James 
Crowell. Mr. Crowell is the Director of the Executive Office of 
United States Attorneys at the U.S. Department of Justice 
(DOJ). He was also a Federal prosecutor for more than 16 years. 
Mr. Crowell.

    TESTIMONY OF JAMES A. CROWELL IV,\1\ NOMINATED TO BE AN 
  ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Crowell. Chairman Johnson, Ranking Member Peters, and 
Members of the Committee, it is a great privilege for me to be 
here. I am deeply grateful for the opportunity to appear before 
you as you consider my nomination to be an Associate Judge of 
the Superior Court of the District of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Crowell appears in the Appendix 
on page 147.
---------------------------------------------------------------------------
    I want to thank the Judicial Nomination Commission and its 
chair, Judge Emmet Sullivan, for recommending me to the White 
House. I want to thank the President for nominating me. I also 
want to thank Congresswoman Eleanor Holmes Norton for her 
support. Finally, I would like to express my sincere thanks and 
appreciation to the Committee Members and the dedicated 
Committee staff for their hard work in considering my 
nomination.
    I am immeasurably grateful for the support and inspiration 
of my colleagues, family, and friends, many of whom are here 
with me today. In particular, I want to recognize and thank my 
friends and colleagues, the United States Attorneys for the 
District of Columbia and the Eastern District of Virginia, 
Jessie Liu and Zach Terwilliger, as well as Judge Anthony 
Epstein of our D.C. Superior Court. I deeply appreciate their 
friendship, support, and encouragement.
    My wife, Michaeleen, has been my life partner and cherished 
friend for the last 19 years. Her love and support, and the 
gift of our children, Jac and Ellie, are our greatest 
successes. A moment's indulgence--this is my son, Jac, my 
daughter, Ellie, my wife, Michaeleen. I am also thankful that 
her father, Michael, is here today. I appreciate his love and 
support over these many years.
    My family is from Mississippi and Louisiana, but my wife 
and I have made the District our home for the last 16 years. We 
came to Washington for Michaeleen to pursue her dream of 
working on Capitol Hill. As a young newlywed, I did not realize 
that her dream of coming to Washington would become our dream 
of making this city our home. We are communicants at St. 
Joseph's Church on Capitol Hill, where my son will be confirmed 
this weekend. I take pride in serving as a volunteer softball 
coach for my daughter here on the Capitol Hill Little League. I 
am a proud member of the American Legion, Post 8, here on the 
Hill. Our children were born here, and we have proudly raised 
them as D.C. natives. This is my home.
    I was raised by a single mother with a high school 
education, who worked tirelessly to provide for me and open 
doors of opportunity that no one in our family had walked 
through. She passed 20 years ago, but I hope that she is able 
to look down upon her son with pride on this day. She taught me 
to expect nothing, and to be grateful for everything, to remain 
gracious in times of defeat and humble in moments of victory, 
and always to leave things better than you found them. These 
have been, they currently are, and will always remain my 
guiding principles.
    My presence here today is the result of a supportive 
family, exceptional colleagues, and my good fortune in joining 
two organizations that have shaped me personally and 
professionally, the United States Army and the Department of 
Justice.
    In 1994, as a 19-year-old private, I raised my hand for the 
first time to swear allegiance to support and defend the 
Constitution of the United States. As a career public servant, 
over the last 25 years, I have had the privilege of repeating 
that oath many times.
    I started my legal career as a law clerk to United District 
Judge Charles Pannell, Jr. He taught me the meaning of judicial 
temperament--patient, unbiased, open-minded.
    In 2001, I joined the Justice Department through the 
Attorney General's Honors Program and I served in the Antitrust 
Division, the Public Integrity Section, and as an Assistant 
United States Attorney (AUSA). I was privileged to represent 
the United States as trial counsel in countless cases that 
protected the public and preserved public resources, and 
protected victims of crime. Now, as Director of the Executive 
Office for United States Attorneys, I continue to serve the 
Department's mission of ensuring equal and impartial justice.
    I have also served in the U.S. Army Reserves for the last 
25 years. I began my career in the Army as an infantryman, but 
after law school I became a Judge Advocate and was assigned as 
trial defense counsel. In that role, I represented countless 
soldiers accused of all manner of crimes. These soldiers' 
career, their livelihood, and their family security were on the 
line. That experience formed the basis for my strong belief 
that able defense lawyers are essential to the functioning of a 
constitutionally sound adversarial system.
    Whether serving in a uniform or a suit, as a prosecutor or 
as a defense lawyer, I have sought to be a fierce advocate for 
the rule of law, a principled and independent decisionmaker, 
and a faithful servant of the Constitution. I understand the 
D.C. Superior Court's mission to provide access to justice for 
all. If I am fortunate enough to receive your support, you have 
my word that I will strive to achieve that mission and approach 
every case, every controversy with a commitment to justice and 
fairness.
    Thank you again for considering my nomination and I look 
forward to answering any questions you might have.
    Chairman Johnson. Thank you, Mr. Crowell.
    Our final nominee, also has been nominated to be an 
Associate Judge for the Superior Court of the District of 
Columbia, is Jason Park. Mr. Park is an Assistant U.S. Attorney 
in the D.C. U.S. Attorney's Office. He is the Deputy Chief of 
the Felony Crimes Division, overseeing a team of attorneys 
prosecuting cases before the D.C. Superior Court. Mr. Park.

TESTIMONY OF JASON PARK,\1\ NOMINATED TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Park. Thank you and good afternoon, Mr. Chairman, 
Ranking Member Peters, and Members of the Committee. Thank you 
for this opportunity to appear before you as you consider my 
nomination to serve as an Associate Judge on the Superior Court 
for the District of Columbia. It is a great honor to be here 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Park appears in the Appendix on 
page 177.
---------------------------------------------------------------------------
    I would like to thank the District of Columbia Judicial 
Nomination Commission and its chair, the Hon. Judge Emmett 
Sullivan, who is kind enough to be here today, for recommending 
me to the White House, and I thank the President for nominating 
me. I would also like to thank the Committee staff for their 
hard work, Congresswoman Norton for her support, and Chief 
Judge Robert Morin, who is also here, for his leadership of the 
court.
    I am also grateful to my friends and colleagues, some of 
whom are here today, including my exemplary boss, the U.S. 
Attorney for the District of Columbia, Jessie Liu, and the Hon. 
Judge Kelly Higashi, my former chief in the sex offense section 
at the U.S. Attorney's Office and an extraordinary colleague, 
mentor, and friend.
    I am joined today by my wife Kati Daffan, and our oldest 
son, Elliot, who is seven. Our younger son, Oliver, is four and 
is in school today. It is impossible for me to express how much 
I owe to my family and in particular to my wife, Kati, without 
whom I would not be here today.
    I also would like to acknowledge my parents, Dr. Duk-Won 
Park and Sunja Park, who traveled from Alabama to be here. My 
parents came to this country nearly 50 years ago, and over the 
years and decades they built a home that has served as the 
foundation for everything my sisters and I have been blessed 
with. I am grateful they could be here today.
    I first came to Washington, DC, 16 years ago to attend law 
school at Georgetown. After graduating and spending nearly 3 
years practicing commercial litigation at an international law 
firm in New York, my wife and I returned permanently to the 
District 10 years ago. We are proud to call this city our home.
    Upon returning to the District, I was fortunate enough to 
serve as a law clerk to the Hon. Judge Ricardo M. Urbina of the 
U.S. District Court for the District of Columbia, who remains 
an inspiration and mentor to me to this day. I then spent a 
short time as a defense attorney at a large law firm here in 
D.C., where I represented individuals who were the subject of 
investigation and prosecution by Federal entities.
    For the last 7 years, I have had the distinct privilege of 
serving the citizens of our city as an Assistant United States 
Attorney at the U.S. Attorney's Office for the District of 
Columbia. Currently, I serve as the Chief of the Major Crimes 
Section of the Office's Superior Court Division, where, with my 
three deputy chiefs, I supervise more than 20 AUSAs prosecuting 
violent crime cases in D.C. Superior Court.
    For the majority of my career, I served as a prosecutor in 
the sex offense and domestic violence section, investigating 
and prosecuting child sex abuse, child physical abuse, sexual 
assault, and child exploitation cases in the D.C. Superior 
Court and in Federal district court. I have had the great 
privilege of working closely with survivors, witnesses, and 
families from all parts of this city. I have also been 
fortunate enough to appear before and try cases in front of 
many of the exemplary judges of the Superior Court.
    It would be a great honor to continue my public service as 
an Associate Judge on the Superior Court for the District of 
Columbia. Thank you again for considering my nomination and I 
look forward to answering your questions.
    Chairman Johnson. Thank you, Mr. Park.
    There is a series of three questions I have to ask all of 
the nominees, and what I will do is I will ask the question and 
then go right down the line. If you will answer them 
individually, starting with Mr. Bloom.
    The first question, is there anything you are aware of in 
your background that might present a conflict of interest with 
the duties of the office to which you have been nominated?
    Mr. Bloom?
    Mr. Bloom. No.
    Mr. Martinez. No.
    Mr. Crowell. No, sir.
    Mr. Park. No.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Bloom. No, I do not.
    Mr. Martinez. No.
    Mr. Crowell. No, sir.
    Mr. Park. No.
    Chairman Johnson. Do you agree, without reservation, to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Mr. Bloom. I do.
    Mr. Martinez. I do.
    Mr. Crowell. Yes, sir, I do.
    Mr. Park. I do.
    Chairman Johnson. OK. Those are all the right answer. Thank 
you. [Laughter.]
    First of all, I do want to acknowledge the colleagues here. 
I appreciate the strong attendance. Normally I would throw it 
right to Ranking Member Peters but I have a hard break at 3:30 
so I just have a couple of quick questions for the postal 
nominees.
    Have you both had a chance to review the Postal Task Force 
recommendations, their report? Mr. Bloom.
    Mr. Bloom. Yes, I have.
    Chairman Johnson. Mr. Martinez?
    Mr. Martinez. I have.
    Chairman Johnson. One of the principles of their 
recommendations is to come up with a plan for solvency of the 
Postal Service that does not require taxpayer bailout. As 
Governors, is that a goal that you would also share, Mr. Bloom?
    Mr. Bloom. Yes, it is.
    Chairman Johnson. Mr. Martinez?
    Mr. Martinez. I do, as well.
    Chairman Johnson. One thing in our hearing that I thought 
was pretty interesting, a couple of the witnesses talked about, 
we really do need to--because we have never defined what 
Universal Service Obligation means, and I think that is going 
to be important as we move forward. What is that definition? Is 
that something that you would be committed to trying to 
recommend what that definition would be? It would probably have 
to something we would have to do in legislation. Mr. Bloom.
    Mr. Bloom. Yes, I think the Board of Governors would have a 
role. Obviously it would be up to the Congress, but they would 
have a role in trying to bring forward our thoughts.
    Chairman Johnson. Do you want to throw out some of those 
thoughts right now?
    Mr. Bloom. No, sir. Not yet.
    Chairman Johnson. OK. Mr. Martinez?
    Mr. Martinez. Absolutely. You have to have a clear 
definition of the USO before you can start tackling the 
problem. How do you know what you are going to solve if you do 
not have the definition that is agreed to by all 
constituencies, and hopefully on a bipartisan basis.
    Chairman Johnson. So you think the conversation ought to 
start at the Board of Governors.
    Mr. Martinez. Well, let's step back. As I understand it, 
the statutes are created by the Congress and they have a very 
broad definition of USO, the concept, the principles of Postal 
Service obligation for the entire nation at a reasonable cost. 
When you get into the details, it is hard to find any place 
where you see that. The PRC chairman has asked for a 
definition. The Members here have asked for a definition. The 
USPS have asked for a definition. So I think we should define 
it first.
    Chairman Johnson. This will be my last question. As an 
accountant myself, as a business person, it is very difficult 
to price products if you do not have a really good cost 
allocation model. We are operating off of what I have been told 
is something like a 50-year-old cost allocation model. 
Obviously, the Postal System has changed quite a bit with the 
reduction in the monopoly part of the business and First-Class 
Mail and, really, in terms of parcel post. We deliver to every 
post box and that is that last mile that is so attractive to 
other partners in the parcel service.
    Talk a little bit about the cost allocation model and what 
we really need to do there. We will start with you, Mr. Bloom.
    Mr. Bloom. Yes. I think as a general matter your broad 
comment is absolutely right. You have got to be able to score 
what you are doing, and if the model is indeed that old I 
cannot imagine it does not need updating. I am not familiar 
with the detail of it but I certainly agree with your 
overriding proposition, which is that the service needs to be 
able to score what it is doing to make determinations about 
what its best path forward is.
    Chairman Johnson. Mr. Martinez.
    Mr. Martinez. This will be preliminary because I have not 
gotten the chance to go and dig deep into it, but you put your 
finger on a very important issue. We have, in the monopoly part 
of the business, a model that started with a pricing philosophy 
that was to keep up with the growth of the Nation. Then the 
digital revolution hit, and all of a sudden the pricing part is 
no longer compatible with that part of the business, while the 
cost basis continues to go up because we need to continue to 
serve the entire nation. So there is a disconnect there and we 
need to know exactly what the cost is to service the universal 
obligation that we have.
    On the other part of the business, that should be, frankly, 
freer of constraints. We are competing with--sorry, I am not 
confirmed yet--the USPS is competing with Federal Express 
(FedEx) and United Parcel Service (UPS) to have a cost 
structure completely different than ours. That chart\1\ over 
there shows health care prefunding of $4.5 billion. That is 7 
percentage points in terms of the margin that it eats up. FedEx 
does not have retiree benefits. So, yes, there is a great need 
to analyze the cost basis and the model as a whole.
---------------------------------------------------------------------------
    \1\ The chart referenced by Mr. Martinez appears in the Appendix on 
page 200.
---------------------------------------------------------------------------
    Chairman Johnson. Chairman's priority, I have one more 
question.
    If you could summarize, just in kind of like the biggest 
problem the Postal Service has, what would you say it is, Mr. 
Bloom?
    Mr. Bloom. I would say two things. One, my observation of 
other companies or institutions is normally it is a 
constellation of problems. There is not one thing. But if I had 
to look at one thing it is the fundamental change in the 
environment. It is the decline of First-Class Mail, and that 
sort of sits on top of everything because your fundamental 
revenue base is changing. And so adapting to that change, I 
think, is the central challenge.
    Now there are 20 other things that sit on top of that but 
the thing that has changed most radically in the last 10 years 
is the decline of first class.
    Chairman Johnson. And they have not been able to change 
their cost model significantly because labor costs are such a 
huge----
    Mr. Bloom. I think there are a number of constraints that 
make that adaptation difficult, whether it is the prefunding, 
which needs to be looked at, whether it is the pricing model, 
the cost model. All of those models need to constructively be 
looked at holistically to deal with the basic fact that the 
main thing they used to sell, if you will, they are selling a 
lot less of.
    Chairman Johnson. Mr. Martinez.
    Mr. Martinez. I would agree with what Ron said and I would 
add a couple of things, if I may. There is a disconnect. We 
want the USPS to be self-sustaining, i.e., generate its own 
revenues as public company, as a private sector company, yet we 
mandate them with costs that the private sector does not have, 
like in the retiree benefits situation. So we have to bring 
things back into balance as to the objectives of the USPS and 
what is the right business model, which includes both pricing 
and costing of all the products.
    Chairman Johnson. OK. Thank you. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. Thank you to all 
of you for your willingness to serve and congratulations on 
your nomination.
    To focus again back on Postal Service and to pick up on 
Chairman Johnson's comments on universal service, and hearing 
from both of you saying that it is not completely defined 
exactly what Universal Service Obligation means, for me it is 
fairly clear, and that is that everybody, no matter where they 
live, have access to quality Postal Services and at a 
reasonable price, particularly in our rural areas.
    I think of Michigan, with our urban areas in the Detroit 
area, but when you get into Northern Michigan, in the Upper 
Peninsula, you are many miles from a lot of metropolitan areas, 
but the Postal Service is absolutely vibrant, or I should say 
absolutely essential for small businesses in those communities, 
for example, to sell their products, and we are seeing more and 
more engage in commerce by using Postal Services as a part of 
that. People need to have access to medicines and other kinds 
of essential services.
    So my question to both of you is, give me a sense of how 
you are thinking, right now, of how you deal with the 
challenges associated with providing that kind of service to 
rural areas in even places like the Upper Peninsula of 
Michigan, which are a long way from large urban areas. How are 
you going to approach this problem? Give me a sense of your 
thought process.
    Mr. Bloom, do you want to start?
    Mr. Bloom. Sure. I think there is, to me, the sort of 
central dilemma sits with the following--both in terms of 
serving rural and non-urban communities as well as the broad 
mission of the Service, that the network is what it brings to 
the table. The network both from a social policy perspective as 
well as an economic matter, the network is what the Postal 
Service has. As I said in my remarks, would be very cautious 
about changing--degrading the network, because then I think you 
start in a negative spiral that is hard to get out of.
    The degradation of the network does not just affect rural 
communities, although it most assuredly does, but it affects 
all users and all shippers, because they are attracted to the 
Postal Service precisely because of its network. That, I think, 
is fundamental.
    On the other hand, we cannot ignore the fact that the 
number of first class pieces going through that network has 
declined, and so balancing those two, I think, is the 
challenge, is maintaining the network, not getting into a 
negative spiral where the network degrades and then fewer 
people want to ship and it degrades further, et cetera, but 
also not ignoring the external reality of filling that network 
has to be done differently, given the decline of first class.
    Senator Peters. Mr. Martinez.
    Mr. Martinez. It is clear that the public interest, which 
is the mandate of the USPS, is to serve both the urban and 
rural, and I subscribe to that. I would like to understand 
better, and one of the things that I would like to ask, sir, as 
soon as I--if I get confirmed, is, is there a difference in the 
service needed in rural Michigan to rural Florida or rural 
Missouri or rural New Hampshire? I do not know the answer to 
that. It may be there be different sub-models of how to service 
the communities, given what they need. I would like to get an 
answer to that question.
    But in principle, I think it is very important to maintain 
the essential services to rural America. And if you step back, 
that is why it is also important to have the competitive 
product side of the organization developed as best as it could, 
because it is the consolidated operating cash-flow of the 
combined that will be able to serve as the public side that 
might be not cost effective.
    Senator Peters. When you bring up essential services, 
obviously that is part of what we have to think through too. 
What are essential services and what are non-essential? There 
could be a variety of opinions on that, and folks in the Upper 
Peninsula of Michigan may define that differently than others 
will do that.
    Mr. Martinez. Exactly.
    Senator Peters. So the sense that I get from both of you, 
and I want to get your commitment, is that you will do a deep 
dive into the economic impacts of changes in Postal Service to 
rural areas. We have this Postal Task Force that analyzed the 
rural communities but I do not think they actually looked at 
the economic impact to the particular community and the 
challenges associated with that.
    Do I have your commitment to do that kind of deep dive?
    Mr. Martinez. Yes, Ranking Peters, and beyond that is what 
do the people want? What do they think they need? It is not 
just an economic study from some commission. It is what do the 
people in those areas believe they need in terms of service? 
That would be very helpful to know as well.
    Mr. Bloom. Yes.
    Senator Peters. Great.
    And related to that, and both of you brought this up too, 
is as you have the universal obligation to provide service, 
universal service, there is also service performance. I think, 
Mr. Martinez, you alluded to that in some of your comments, is 
that as you degrade performance, in order to save money, then 
you become, or you can fall into a death spiral where people 
are not going to use the services because it continues to get 
worse, and that cannot continue.
    Give me your thoughts on how do we deal with that 
challenge, which is significant. Mr. Bloom.
    Mr. Bloom. Yes. I do think that is the challenge, but you 
cannot leave the network exactly like it was 50 years ago 
either, because the Nation is not like it was 50 years ago, and 
the needs of the citizens are not like they were 50 years ago. 
But the basic principle of a robust network, as I said, I think 
is the Postal Service's key attribute, and if it is going to 
both be financially successful, which today it is not, and 
fulfill its broad social mandate, I think it has to have a 
robust network.
    Senator Peters. Mr. Martinez.
    Mr. Martinez. I am not sure exactly if this is going to 
answer your question, but what I took from it is quality of 
service. USPS is a service organization. I come from a service 
business, and the client comes first. The customer comes first. 
One of the first things I also would like to see is what is the 
quality monitoring that the USPS manages in its employees 
today? What are the metrics they look at in terms of 
performance? I think that is critical.
    One of the things that, again, the current governance 
structure lacks is a board committee to deal with it more 
granularly at the board level in terms of the oversight of the 
process of how you monitor quality. Normally that would come 
under the audit committee or the governance committee, but the 
USPS does not have that because they do not have the people 
there.
    Senator Peters. Just one final question to both of you, is 
that probably one of the most important resources at the Postal 
Service are the employees of the Postal Service. Nearly 100,000 
veterans, as you know, work for the Postal Service. Oftentimes 
those folks who are on the front line are not asked questions, 
are not asked to give their opinion, and yet they are the ones 
in the best position to often know exactly what is going on and 
offer some incredibly productive ideas as to how to change 
things.
    I would like each of you just to briefly comment as to how 
you will actively seek out the opinion of Postal employees and 
make sure that they are part of the decisions made by the Board 
of Governors.
    Mr. Bloom. Yes, I think that is principally one of the jobs 
of management, so I think encouraging management and instating 
that management have that kind of open dialogue with the 
employees and their representatives is absolutely essential.
    Senator Peters. Mr. Martinez.
    Mr. Martinez. I think not so much the decisionmaking 
process but the input, and I think it is very important for the 
board to know whether the management is, in effect, getting 
input from the employees as to where the businesses are.
    I would ask another question, as we look at new businesses 
and new services, has the USPS asked its employees basically to 
come up with ideas? They are the ones that have the contact 
with the customer. Maybe the best ideas can come from them.
    Senator Peters. Great. Thank you.
    Chairman Johnson. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman, and 
congratulations to each of the nominees on your nomination.
    Mr. Martinez, can I start with you? In your written 
responses you note the difference between, or you make a 
distinction between governance and management, which I thought 
was interesting, and I wonder if you could just elaborate a bit 
on what you think that difference is what the proper balance is 
between the two.
    Mr. Martinez. I appreciate the question. I appreciate that 
somebody read the questionnaire, because there were 72 
questions.
    There is a very fine line between governance at the board 
level and management, and a board member should not be micro-
managing management but should be involved enough to oversee it 
and monitor the pace of the strategy, the pace of the 
operations, and other things that basically make up the 
workings of a company.
    At the same time, thought, they should be there, available 
for advice and counsel. The best boards involve diversity of 
expertise, as I mentioned in my opening statement, where you 
have people with experience with large companies, with 
marketing, with finance, with information technology, et 
cetera. Bringing them in to advise is a very important element, 
but the line has to be drawn in terms of--and sometimes it is 
hard for former Chief Executive Officers (CEOs) sitting on 
boards to not to try to manage the managers. That is what I 
meant.
    Senator Hawley. Thank you very much. That is very helpful.
    Speaking of questionnaires, Mr. Bloom, in your 
questionnaire there as a series of quotations. I want to ask 
you about some of these that, quite frankly, I find disturbing.
    In a 2008 speech, entitled ``Asserting the Union Position 
and Restructuring Steelworker Style'' that you gave at the 
Sixth Annual Distressed Investing Forum, you are quoted as 
saying the following.
    Here it is, and I quote: ``Generally speaking, we get the 
joke. We know that the free market is nonsense. We know that 
the whole point is to gain the system, to beat the market, or 
at least find someone who will pay you a lot of money because 
they are convinced that there is a free lunch. We know this is 
largely about power, that is an adults-only, no-limit game. We 
kind of agree with Mao, that political power comes largely from 
the barrel of a gun, and we get that if you want a friend you 
should get a dog,'' end quote. Are those your words?
    Mr. Bloom. Yes.
    Senator Hawley. Do you stand by those?
    Mr. Bloom. No.
    Senator Hawley. What specifically? I mean, where should we 
start? Do you think the free market is nonsense?
    Mr. Bloom. I think I answered in my questionnaire that I do 
not.
    Senator Hawley. Well, why is that? Because you have changed 
your views or because you were inadequately quoted? What you 
answered in your questionnaire are one-words answers to very 
specific questions, all of which are just flat denials. So why 
don't you take the opportunity to inform us?
    Mr. Bloom. No, I am happy to clarify further. I was giving 
a speech at a conference where the people in the room were--
styled themselves as very tough, hard-boiled investors, and I 
was trying to convey that the steelworkers union is also 
capable--while it would to work constructively it is also 
capable of acting in a very hard-headed and hard-boiled way. 
And so in order to do that I spoke in a very provocative way 
that does not reflect my actual views.
    Senator Hawley. So you were pandering to your audience.
    Mr. Bloom. I was trying to provoke my audience.
    Senator Hawley. By saying that you agree with Mao?
    Mr. Bloom. I was trying to provoke my audience to get them 
to think that the steelworkers could be a great partner but 
were also prepared to be tough, just like them.
    Senator Hawley. Do you agree with Mao that political power 
comes largely from the barrel of a gun?
    Mr. Bloom. I do not.
    Senator Hawley. Do you think that the whole point is to 
game the system, to beat the market, to find somebody who will 
pay you a lot of money because they are convinced there is a 
free lunch?
    Mr. Bloom. No, I do not.
    Senator Hawley. My concern, Mr. Bloom, is that if this were 
just one speech it would be troubling enough, but as the 
record, I think, clearly reflects you have a long history of--I 
think the best you can put it is inflammatory statements, I 
mean, that are politically charged, is I think the nicest way 
to put it.
    What assurances do we have that as a member of this very 
important governing body you will conduct yourself in a way 
that is befitting of a nonpartisan body charged with overseeing 
a very important institution in this country and not engage in 
this kind of inflammatory rhetoric that you now say--oh, do you 
regret this rhetoric, actually? Do you regret these remarks?
    Mr. Bloom. Yes.
    Senator Hawley. Would you make them again now?
    Mr. Bloom. I would not.
    Senator Hawley. So what assurances do we have going forward 
that you will not engage in this pattern of behavior?
    Mr. Bloom. Well, the best I can offer you, Senator, is I 
have a 40-year career of solving exceptionally complex problems 
from all sides of the table, whether it be labor, whether it be 
management, or whether it be sitting in a government seat, and 
I think my record in those 40 years speaks for itself, where I 
have been able to find win-win solutions in very complicated, 
difficult situations where normally parties were drawn to 
conflict and I was able to find resolution.
    I believe that while I certainly occasionally speak in an 
aggressive way to advocate a point of view, I think a 40-year 
career of solving problems and fixing things that are badly 
broken, as I have, I think is the best I can offer you.
    Senator Hawley. Let me turn, in the time I have remaining, 
to Mr. Crowell and Mr. Park. Gentlemen, let me just ask each of 
you to begin with, what, in your opinion, is the most important 
characteristic of a good judge?
    Mr. Park, we will start with you.
    Mr. Park. I think that the number one characteristic that 
we look for in a judge is the law, understanding what the 
judge's role is, and the judge's role being to apply the law to 
the facts, not to be influenced by that particular judge's 
personal sympathies, biases, not to be influenced by popular 
perceptions, popular views of a particular litigant or party. I 
think that that spirit of independence is fundamental to our 
system of government and to the judicial system. I think if I 
had to identify one characteristics that would be the one.
    Senator Hawley. Thank you. Mr. Crowell.
    Mr. Crowell. I completely concur with Mr. Park. I think 
impartiality is the cornerstone of any judicial opinion.
    Senator Hawley. Thank you very much.
    Mr. Park, let me ask you, you recently joined, this past 
year, a number of different bar associations, including the 
Women's Bar Association of D.C. Let me ask you about a number 
of litigating positions that that bar association has taken, 
including opposing religious liberty exemptions to the 
Department of Health and Human Services (HHS) mandate, 
opposing--being on the wrong side of the Becerra case in 
California's attempt to use speech regulations to force prolife 
crisis pregnancy resource centers to issue statements in 
conflict with the mission of those organizations.
    I am concerned about this. I am concerned that this 
association engages in this sort of activism and that it 
consistently comes out on the wrong side in these important 
issues, with what the Supreme Court says the Constitution and 
the law is. Can you tell me about your membership in this 
association? Does it reflect your views, as a judge?
    Mr. Park. To be perfectly honest with you, Senator, I did 
not realize that the bar association took all of those 
positions. Part of the thing that I had hoped to do when I 
first considered applying for this position was to gain a base 
of support and to see whether or not I would have support 
within the community.
    So one of the things I did was to reach out to different 
bar associations--the Women's Bar Association (WBA), the 
Hispanic Bar Association (HBA), the Asia-Pacific American Bar 
Association (APABA)--and to meet with those people and to ask 
whether they would support my nomination.
    One piece of advice I got was that it would be the better 
course of wisdom to pay the dues and show that those 
organizations mattered enough for you to pay the dues and 
become a member. And so that is why I did that. I am not 
familiar, Senator, with actually all of the issues that you 
just raised.
    Senator Hawley. Last question, Mr. Chairman. Is it safe to 
say that should these issues come before you, if you are 
confirmed and should these issues come before you as a judge, 
you would adhere to the precedent and the instructions given by 
the U.S. Supreme Court in these and all relevant cases.
    Mr. Park. Oh, absolutely. Absolutely, Senator. It is not 
just my personal belief. It is a rule of the Judicial Code of 
Conduct in the District of Columbia, so I would be ethically 
bound to do that.
    Senator Hawley. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Lankford [presiding.] Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Let me say to my friend--our friend from 
Missouri, I have known Ron Bloom for a long time. The work that 
he did with respect to the restructuring of Chrysler and GM and 
bringing them back, really, from not just the abyss but really 
from bankruptcy, is laudatory. You are probably going to be 
surprised to hear me say this but our colleagues, myself 
included, sometimes we say things that are somewhat 
inflammatory, even in this room, and we should not be totally 
surprised that maybe one of our nominees, maybe some of them 
would do the same thing. I actually feel real lucky to have 
people as good as Ron and Roman Martinez to be nominated to 
serve.
    I think we should be ashamed, as a body, for our failure--
and I would say the current Administration--the last 
Administration actually nominated six Governors in, I think, 
2016, and the Senate--three Democrats, three Republicans--and 
we failed to move those nominations. So we were stuck with 
nobody for the Board of Governors for 2 years, which is just 
awful. Can you imagine a business this big operating without a 
board of directors for 2 years, and with maybe one or two 
people for even longer? It is just abhorrent.
    I just want to say to Mr. Bloom and Mr. Martinez, thank you 
for your willingness to do these jobs.
    I want to say, Mr. Crowell and Mr. Park, I do not have any 
questions for you. I do want to say I thought your statements 
were excellent. I just want to say to your children, who are 
sitting behind you, I just want to express our thanks for their 
willingness to cut class today---- [Laughter.]
    To be here and sit behind you and lend their support. Who 
is your 7-year-old? What is his name?
    Mr. Park. His name is Elliott, and in full disclosure he 
has been promised ice cream. [Laughter.]
    Senator Carper. Well, I have had the honor of raising three 
boys with my wife, Martha, and we have had to offer to our boys 
a lot more than ice cream to get them to be this well behaved. 
So with that having been the incentive, let me get serious.
    To our nominees for Postal Board of Governors, if you look 
at what--I used to be a naval flight officer (NFO). I served 
three tours of Southeast Asia. The best day of the week for all 
of us was the day we got the mail. We did not have Skype, we 
did not have cell phones. In fact, we did not have much of 
anything except the mail to communicate with people, family and 
others back home. The world has certainly changed, and 
relatively few people use First-Class Mail compared to what 
used to be the case.
    But in adversity lies opportunity, and the loss of First-
Class Mail and the movement of mail to the Internet and the 
idea that people now order a lot instead of going shopping at 
brick-and-mortar places for their goods, they get it over the 
Internet. But there are other opportunities there. Would you 
all just talk about that idea, in adversity lies opportunity as 
it pertains to the Postal Service looking forward? Ron, would 
you go first?
    Mr. Bloom. Yes. I think you have identified a key new fact, 
which is, as I said earlier, the decline of First-Class Mail is 
very significant and a big negative, but in that same 20-year 
period e-commerce has exploded and shows no sign of stopping to 
explode in terms of its growth. And because of its network, 
because it visits every location 6 days a week, and now, in 
some cases, as I understand it, even seven, the Postal Service 
is uniquely situated to be that last mile. Package delivery is 
different than first class, and so I think they cannot just do 
it the way they did it, but sitting beside the decline of first 
class is the explosion of packages and that opportunity. At 
least as I see it, e-commerce continues to grow relentlessly 
and in that adversity lies the opportunity to continue to play 
a role as the delivery backbone of the United States but to 
deliver a different thing.
    Senator Carper. Mr. Martinez.
    Mr. Martinez. Well, the opportunity would be that it is 
necessary to change the model, because it is broken right now. 
The area of the organization that is growing, the packages, is 
one that provides opportunities if exploited correctly. One of 
the other first things I would like to do is what is the USPS 
doing on its own, in terms of creating new opportunities, new 
businesses, development----
    Senator Carper. Do you see part of the role of the Board of 
Governors is to help explore those and to create the ideas and 
bring ideas to postal management?
    Mr. Martinez. Well, it is a give and take. First of all, it 
would be to make sure that the organization is there, that the 
process is there for that to happen. For example, if you were 
to say what are the new business ideas you have, well, we do 
not have any people thinking about them. Well, that is the 
problem. So what is there already, in an organized way, to 
create ideas for the organization? The board members should 
come up with ideas if they have them but that is not really 
their role, in my view.
    As I mentioned before, also, the employees might be a 
tremendous source of ideas, because they are the ones on the 
firing line. Some of the best inventions have happened because 
of necessity of changing a product or a process or what have 
you. So those are opportunities.
    But having said that, we cannot ignore the fact that the 
way the model is now is broken, because of the way it is 
supposed to serve as the essential services part of the 
business, the pricing, the revenue side, and the cost basis are 
out of whack, and the mandated costs on top of that make it an 
impossible model to succeed on its own. The only way it can 
keep succeeding like that is if the other side, the competitive 
product becomes overwhelmingly successful. So both things have 
to be dealt with, not just one.
    Senator Carper. Thank you. Another question for both of 
you. We have nine slots for Board of Governors plus the 
Postmaster General and the Deputy. We have two right now that 
have been confirmed. I think one of you mentioned the idea that 
to the extent that we had more Governors serving in position 
they would be different skills, different expertise, from 
different backgrounds, and be able to make different kinds of 
contributions and complement one another.
    Would you each talk about how your backgrounds might enable 
you to do that effectively?
    Mr. Martinez first.
    Mr. Martinez. Sure. Well, my background mostly is as an 
investment banker. I consider myself a financial expert, if I 
may say so humbly. The SEC qualifies me as such.
    Senator Carper. I once read in a newspaper, I had become 
Chairman of this Committee, and in the Wall Street Journal 
there was an article about a new chairman and it described me 
as the expert in the Senate on cybersecurity. My wife said this 
to me that night. I said, ``Look at this, honey. The Wall 
Street Journal says I am the Senate expert on cybersecurity'' 
and she said to me, ``In the land of the blind--'' [Laughter.]
    ``The one-eyed man is king.''
    Mr. Martinez. I may be in that category. I do not know.
    But, no. My functional expertise is on that. My experience 
in terms of work not only has been in finance but also the last 
15 years or so on boards, and that brings a dimension to the 
job that I think is very important. A lot of it is asking 
questions. A lot of it is thinking out of the box, thinking out 
loud, challenging the status quo. In my work, and where I work 
with boards, I believe in the Socratic method--asking the 
questions, the right questions, pursuing that, and, in effect, 
come up with solutions as a group.
    So that kind of work, that kind of perspective, that kind 
of experience I think I would bring to my board work.
    Senator Carper. Thank you. Mr. Bloom, same question, 
please.
    Mr. Bloom. I think most of my experience has been working 
with large organizations who, at one point in their life, were 
very successful but whose external environment changed and 
needed to change. And that could have been a steel company, it 
could have been an auto company, it could have been the city of 
Detroit, where I was involved in the bankruptcy there. And in 
each of those cases what I have tried to----
    Senator Carper. Detroit is a come-back city now.
    Mr. Bloom. It is.
    Senator Carper. It is really impressive.
    Mr. Bloom. It is.
    Senator Carper. I hope the same will happen with my Detroit 
Tigers. They are a baseball team.
    Mr. Bloom. I am going to stay out of that.
    Senator Carper. OK.
    Mr. Bloom. But so what I have tried to do in all of those 
cases is ask how can you preserve what is really good in that 
organization but how can you challenge that organization to 
change to meet a very different world that it faces, and how 
can you bring people together around a creative solution. That 
is what I have tried to do in my other work and that is the 
spirit I would bring to this responsibility, if I were given 
it.
    Senator Carper. All right. Thanks to both of you. Thank 
you, Mr. Chairman.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Let me ask a couple of questions as well.
    Gentlemen, thank you all for doing this, and thank your 
families, as well, for stepping through this process. It is not 
a simple process, nor short--painfully so. We are working, 
actually today, to try to make the process a little more 
expedited as we go in the days ahead, but I appreciate so much 
for you taking the time to be able to go through it.
    Mr. Bloom and Mr. Martinez, let me ask you both about the 
President's Task Force and your impressions of that. I know 
there was an initial question to you. I would like a more 
expansive answer. What are your impressions so far of some of 
the recommendations out of there? What do you think needs to be 
applied? What needs to be set aside? Just your initial 
impressions. You can take it in either order you want to take 
it.
    Mr. Martinez. I will start. I think as a whole it is an 
excellent report. It was able to bring together a lot of the 
issues that are impacting the USPS. If I may make a couple of 
specific observations, they also underscored what has been 
underscored before you came in, that we talked a little bit 
about the USO and the need to define the Universal Service 
Obligation, and I think that is a major thing. It sounds simple 
but that needs to be done.
    They identify a lot of areas generally, in terms of new 
services and products that need to be addressed. That is 
important. They underscore the fact that this is a public 
service, that urban and rural are very important, and I think 
that is a critical thing to keep in mind throughout the 
process.
    There are areas where I would question. I would like to 
understand better what they mean. For example, there was some 
section there about balance sheet separation and the packages 
business that I frankly did not understand what they meant by 
that. I would like to understand better when they talk about 
new services, the monopoly of the mailbox, and the other things 
that we do on a very sort of a proprietary basis. What are the 
actual revenue potentials?
    I would like to flesh out from all of that more of the 
impact on the economics. In the report that I saw it was not 
totally fleshed out.
    The last point I would make is on-board governance. They 
touched on it but I thought it was incomplete, to the extent 
that I described in my oral statement that I made. The 
importance of having a full-strength board is not just to have 
a quorum. It is you have the diversity of experience, 
backgrounds, the diversity of constituencies, and to be able to 
basically fill the key committees of a board that are needed 
for a board to function--audit, for example, governance, human 
resources, at the very minimum.
    So in that part I wish they would have gone a little bit 
more. But on the whole it is a very complex issue and I think 
they did an excellent job.
    Senator Lankford. Mr. Martinez, thank you. Let me do one 
quick follow up. What does universal service mean to you?
    Mr. Martinez. Well, in principle it means providing postal 
services to the entire nation at a reasonable cost.
    Senator Lankford. OK.
    Mr. Martinez. So what does it mean in terms of the 
specifics, and that is where you can get a lot of different 
interpretations.
    Senator Lankford. Do you think that is every day to every 
box to every location?
    Mr. Martinez. I am not sure, and I think it is something 
that--it is critical to define it, because if we do not define 
the objective, how can we define the solution?
    Senator Lankford. Right. Which is part of the Task Force 
task was to bring that up, to raise it as a question.
    Mr. Martinez. And correct me if I am wrong, but the statute 
delegates that basically to the Executive and the USPS and the 
PRC--the Regulatory Commission--to do. Having said that, it is 
such a sensitive and critical issue that I think there needs to 
be bipartisan agreement as to what the clear definition of it 
is.
    Senator Lankford. That is fair. Mr. Bloom, same two 
questions. What does universal service mean to you, and also 
about the Presidential Task Force?
    Mr. Bloom. Yes. I will start with the second question.
    Again, I would echo Mr. Martinez's point. It means 
affordable access. But even there you asked a question about 
frequency. But even that is not simple because is it that every 
letter needs to be there the next day? The next morning? The 
next night? So you could deliver every day but if it takes 3 
days to get the letter there I think that is probably not 
acceptable to most people. I think the idea of fleshing it out 
and really looking at it more comprehensively is really quite 
important, because it is not just delivery frequency, it is 
time to deliver, and how far away should a post office be from 
the average American. Those are complex, nuanced questions that 
need a lot of study.
    But as was said earlier, getting a little more clarity on 
that will be important, I think, in order for the Board of 
Governors to figure out what problem we are trying to solve. 
What are we solving for? And once one has a clearer sense of 
the USO I think it is a little easier to figure out what you 
are solving for.
    I thought the Task Force had a number of excellent points, 
certainly a number of things that deserve further study. I do 
not take this as a criticism but obviously what was presented 
was a summary. And so what I would look forward to do is 
working with the Treasury to understand what went behind it, 
and having worked briefly in government I am sure there are 
many hours of work that sit behind it. I think a report like 
that cannot be 500 pages but there is a lot of backup.
    And so I would feel the need to understand that better 
before I would know whether or not to support the particular 
conclusions. I think the issues they raised are critical.
    I would also say, again, that while that Task Force report, 
I am sure, will be taken very seriously, or will be taken very 
seriously by me, I would also want to perhaps open the aperture 
a little wider. There are other ideas for reform that have been 
floated. I think we have to be pretty open-minded and have not 
many a prioris when we go into this examination. And that is 
not to denigrate all the good work that has been done. It is 
more to say that there is a lot of good input to get.
    Senator Lankford. I would only say for Congress and, quite 
frankly, for the American people, and the great folks who work 
for USPS, they are counting on not just a quorum for the Board 
of Governors but an operational Board of Governors that is 
taking leadership, making hard decisions, and trying to get us 
not only solvent but directionally focused. There are a lot of 
unanswered questions as we have waited on a quorum, and there 
are unanswered issues because Congress continues to be able to 
debate these forever and not resolve anything.
    So this is the first step, is to get a good, functioning, 
leader-focused Board of Governors, and we are counting on you 
to be able to take that on. So I appreciate you stepping up in 
this season to be able to take this on.
    For the two of you, you get the benefit of being on a panel 
of four people. [Laughter.]
    And with only 7 minutes of questioning time. Of course, I 
am not exactly limited on time. We can spend a little bit of 
time together.
    Both of you, our team has done a tremendous number of 
reference checks and calls and checking with colleagues. There 
is no way you can be that nice. [Laughter.]
    Or you knew everyone that we were going to call, and we 
called a lot of people. So you both have stellar reputations. 
You both have an exceptionally difficult task to step into. I 
appreciate both what you have done in the past, how you have 
carried yourself in the past, and for being willing to be able 
to step into this role. It is a very tough task, and thanks for 
your leadership, and how many people around this community 
already have great respect for you.
    And my daughters got ice cream when they got a shot, so you 
either equate this with getting a shot---- [Laughter.]
    Or something else from there. But I appreciate it very 
much.
    Let me just ask some very simple, straightforward questions 
of you. What do you think are the most significant issues that 
D.C. faces right now, as a community? I know that is a little 
esoteric, but as a community, just for D.C., and for the 
population of D.C., what do you think are the most significant 
issues for the people of D.C. right now?
    Either one of you can take that on first.
    Mr. Park. Well, Senator, I think it might be a function of 
the work that I do, but I think among the most pressing issues 
is the amount of gun violence that happens in the streets of 
D.C. We have seen homicide rates over the last however many 
years increase, and so the consequences of that are 
extraordinarily far-reaching for communities, particularly 
disadvantaged communities in our city. And so that is something 
that is on the forefront of my mind, in the work that I do at 
the U.S. Attorney's Office.
    Senator Lankford. OK. Thank you. Mr. Crowell.
    Mr. Crowell. Senator, I think I agree with Jason that gun 
violence definitely is a significant issue. I also think 
housing affordability remains a very significant issue in the 
city. The city has rapidly grown and it is rapidly 
diversifying, and a number of D.C. citizens need a home to stay 
in their city, and I think affordability is a major issue, not 
for the court but for the community here in D.C.
    Senator Lankford. Yes. So let me ask you this, the reverse 
of this. In the role of serving on the court, what do you think 
is one of the best ways that you can serve the people of D.C., 
that you can do as a leader and as a judge?
    Mr. Crowell. As a judge I think it is to be a fair and 
impartial applicant of the facts to the law, to not overstep my 
role as a judge, to faithfully execute and serve the 
Constitution. I recognize that I serve on an inferior court, 
and to continue that service in that way.
    I think as a leader I think it is incumbent upon the 
Judiciary not to hide behind their robes, to be out in the 
community. I enjoy my public service. I enjoy serving in the 
military. I intend to continue that service. I enjoy coaching 
softball for my daughter. I enjoy attending service at my 
church. I think it is important, living here in Ward 6, that 
the citizens that see me here in Ward 6, or across the river in 
Ward 8, recognize the judge, that I am a part of that 
community. They see me not only in the pew but also at any 
number of community events, and see us out in the public.
    Senator Lankford. Thank you.
    Mr. Crowell. Yes, sir.
    Mr. Park. I would actually echo everything that Jim said, 
and perhaps add that I think in the Superior Court there are 
enormous challenges, given the volume of cases that they have 
to deal with it can be crushing, I know, on the criminal side, 
on the civil side. I would like to think that one thing I might 
be able to contribute is some measure of decisiveness, moving 
cases along. Having spent a number of years practicing in that 
courthouse I would like to think that I could hit the ground 
running and ensure that litigants have their day in court as 
expeditiously as possible.
    Senator Lankford. OK. With that I always have a question 
that I ask, and that is about helping the litigants actually 
get their day in court and get it finalized. There is a 
terrible habit among attorneys nationwide to not prepare well 
for a case and know that I can just go to the judge and ask for 
more time and I get more time. That may be nice for the 
attorney, that may be convenient for the judge, but for the 
person who is trying to get justice it is both expensive and 
time-consuming for them.
    How do you manage your court, or how do you plan to manage 
your court in the way to be able to hold attorneys responsible 
for preparing for their cases on time, to make sure that their 
clients actually get their day in court?
    Mr. Park. I think part of it is meaning what you say, and 
when you set a deadline it needs to be a realistic deadline, 
and there have to be consequences for not meeting that 
deadline. I think everybody understands that the lawyers who 
practice in the court, who are a wonderful group of attorneys, 
have a lot of challenges and competing responsibilities.
    But what I have found during my time working in the court 
is the judges who demand more and who you know will hold 
parties accountable for not meeting those deadlines, they tend 
to get met. I would like to develop that type of reputation in 
the court, and I think it means it stems from setting deadlines 
that matter and sticking with them.
    Senator Lankford. Yes. OK. Mr. Crowell?
    Mr. Crowell. Senator, I would agree with those comments. I 
think one of the major challenges in D.C., is in fiscal year 
(FY) 2018 we had over 90,000 new cases file in the District of 
Columbia. And most of our focus is often on criminal cases--
those are the cases that we think about--but of those 90,000, 
55 percent of them were civil cases. And unlike criminal cases, 
there is no Fifth, Sixth Amendment right to counsel, so these 
are oftentimes individuals, litigants coming before the court 
who are trying to navigate that byzantine world of the court. I 
think that is one of the roles of the court and its juris is to 
make the court more available to those pro se litigants, to 
make it more transparent.
    One of the pillars that the court is building upon and is 
providing access to justice--that is actually one of the core 
concepts that we are trying to push forward, and if I am lucky 
enough to be confirmed it is one I believe in firmly--one of 
those issues where a diversifying city, many of our litigants 
that come before the court do not speak English. Many of the 
forms not necessarily have been translated into their 
languages. It is an area that we need to make an effort to 
simplify some of the civil forms so that those litigants are 
able to represent themselves if they are not able to afford 
counsel.
    And then I think it is incumbent upon the court and the 
judges to encourage the civil defense bar and the civil 
plaintiffs' bar to offer their services to those litigants. I 
think it is a mark of leadership. Being an attorney is a 
privilege, and with that privilege comes certain 
responsibilities, and I think that includes serving those that 
are less fortunate.
    Senator Lankford. OK. That would be terrific. Excuse me 
just a second. Thank you.
    Senator Carper has one final question. We are trying to 
pause for just a moment. I think he is going to step back in. I 
assume it would be something hard and complex, so I want to 
make sure you do not miss that, and be able to go from there.
    Let me make this statement on the way back in and then he 
will be able to step in. Senator Carper, you are recognized. 
Make sure it is a difficult question.
    Senator Carper. I have a question about impartiality. The 
question is, for each of you, could both of you, Mr. Martinez 
and Mr. Bloom, speak to your ability to be impartial when it 
comes to businesses and others who use and partner with the 
Postal Service?
    Mr. Bloom, would you go first.
    Mr. Bloom. Yes. I think the role demands it. The role 
demands that your responsibility on the Board of Governors is 
to the entire institution, not to any particular stakeholder. 
While I have served stakeholders on all sides, that is not my 
job, if I am privileged to be confirmed. My job is to try to 
ascertain, with my fellow Governors, what is best for the 
entirety of the institution, and that would be my goal.
    Senator Carper. Thank you. Mr. Martinez, same question, 
please.
    Mr. Martinez. The Delaware court defines it----
    Senator Carper. Did you say Delaware court?
    Mr. Martinez. Oh, you are from Delaware. That is right.
    Senator Carper. Half the judges that serve on the Delaware 
court----
    Mr. Martinez [continuing]. Defines that one----
    Senator Carper [continuing]. One time with folks I had 
nominated.
    Mr. Martinez [continuing]. The Chancery Court defines the 
duties of the board as a duty of loyalty and duty of care, and 
in the duty of loyalty, integrity is one of the key 
determinants of that loyalty definition. I like it that way, I 
believe, with all my board assignments and I plan to continue 
to do so here.
    Senator Carper. That is great. In fact, off the record--
this is off the record--the Chief Justice of the Delaware 
Supreme Court was at one time one of my interns, and he had a 
big brain even then. We had another young guy, Mr. Chairman, 
who ended up--his name was Guhan Subramanian. That was it, 
Guhan Subramanian. Guhan was a junior in high school, and we 
never had interns that were juniors in high school.
    And we had Guhan and we had Leon Strine, who went on to 
become the Chief Justice of the Delaware Supreme Court. One was 
a junior in high school and one was a junior in college, and 
they had more intellectual horsepower than the rest of us in my 
congressional office combined. And we knew they were going 
someplace but we did not know how far. We used to call Guhan, 
President Guhan. So, who knows? He is still young so it might 
happen.
    Could you fellows speak to your ability to be independent 
of the President and Postal Service management to make the best 
decisions for Postal customers? Mr. Martinez.
    Mr. Martinez. That is the way I have operated in not only 
my board work but also in my professional career. I have had 
chances where I have turned down assignment of a public board 
that I resigned from because I did not agree with the direction 
of the company. There are other instances that have happened 
and I cannot get into the detail because of the confidential 
nature of those dealings. But, no, I have acted independently 
and there is no reason why I would act differently now.
    Senator Carper. All right. Thanks. Mr. Bloom, same 
question.
    Mr. Bloom. Yes, no, the same thing. I feel like I have 
always tried to be independent and say what I think. I try to 
do it in a respectful way. I acknowledge that the other 
stakeholders have legitimate perspectives. The management, the 
President, the Congress will all have important roles here, but 
what I think you are asking us to do is give you our collective 
best judgment, and then the Congress, in its wisdom, can do 
with it as it will. But we are no use if we are not giving our 
independent best judgment.
    Senator Carper. All right. This is for both of you, if 
confirmed, again, speaking to the work of overseeing the 
Postmaster General, other senior Postal management, what steps 
would you take to evaluate the team in place today, and going 
forward, what qualities would you look for when looking to fill 
key positions?
    Two questions. If confirmed, what steps would you take to 
evaluate the team in place today, and going forward, what 
qualities would you look for when looking to fill key 
positions? Mr. Martinez.
    Mr. Martinez. One of the most important things that boards 
do is that, and also to provide for continuity of management, 
succession planning, et cetera. That is one of the things where 
the USPS board is lacking now. Normally you have a governance 
committee, a human resources committee of the board that deals 
and delves, in a more granular way, into those assignments. 
Lacking that, I think the board has to act as a committee of 
the whole, basically, and in that respect you can have 
different ways of assessing it.
    It is a little premature for me to say how it would be done 
but I would like to get to know the Postmaster General better, 
the Deputy, some of their direct reports. In some situations 
that I have been involved in there are so-called 360-degree 
sort of assessments that get made to see how management is 
perceived by their underlings. I am not saying that that should 
be the thing we do here, but I keep an open mind as to how best 
to do it. But it is critical that the board be very much 
involved in assessing the performance and also the 
compensation.
    Senator Carper. OK. Mr. Bloom, same question.
    Mr. Bloom. I would agree with Mr. Martinez. I would add a 
couple other observations.
    I think what the Postal Service needs now is someone who 
both possesses the knowledge and experience with this 
particular organization but also knows how to lead change. That 
is a balance but I think both of those are required in 
leadership in the Postal Service.
    The second thing I would say is in my experience the board 
has pretty good access to the top few people in the 
organization but does not really have access to the next layer, 
and that is where a lot of the action happens.
    And so I think one of the responsibilities of the board is 
to be sure there is a robust talent assessment process so that 
the young folks who are trying to rise up, who show promise, 
who want to really be the leaders of the future are given a 
chance to develop, and there is a good management development 
program and a good opportunity to nurture those folks who 
appear to potentially be what they usually call the high-
potential folks. The board would, in my experience, not 
typically be directly interacting with them but it would be 
assuring that the top people have that robust program in place.
    Senator Carper. My last year as Governor of Delaware we 
earned AAA credit ratings. That is a tribute to Pete du Pont 
who used to be our Governor, Mike Castle, who used to be our 
Governor before me, and the legislature and a lot of people in 
our State who worked hard to pull us from really a terrible 
situation like GM and Chrysler to that position of 
respectability.
    When we earned AAA credit ratings, the same week we earned 
the AAA credit ratings both Moody's, Standard & Poor's (S&P), 
and Fitch all said to us, ``Congratulations. You got a AAA.'' 
It was the first time in Delaware history and we were thrilled. 
They also said, ``You have a big liability out there. You have 
not even recognized an epic liability is health care costs of 
your retirees and potential retirees.''
    This has not been an issue in terms of recognizing--not 
just recognizing the liability but figuring out over what 
period of time to amortize that liability. We amortized our 
liability for creating a pension fund over 40 years. We did not 
need 40 years but that was what we started out in, and we made 
it in more quickly than 40 years.
    Under the 2007 legislation signed by George W. Bush, this 
liability was recognized, but the Postal Service requires, you 
may know, to actually pay for it, amortize the liability like 
10 years. For the life of me I just think that is a bit too 
aggressive, given the situation that the Postal Service is in, 
and suggested it be re-amortized, if you will, to something 
like 40 years, as an appropriate period of time.
    If you have any thoughts along those lines I would welcome 
your thoughts.
    Mr. Bloom, why don't you go first.
    Mr. Bloom. Look, I think the Postal Service has to take 
seriously the promises it has made.
    Senator Carper. Let me just say, if you look at the Fortune 
100 companies, you look at Fortune 500 companies, if you look 
at Fortune 1000 companies, almost none of them have done much 
of anything about setting money aside, amortizing toward this 
liability. Same thing with States, State governments in large 
cities.
    Go ahead.
    Mr. Bloom. Yes.
    Senator Carper. That is not to say that they should 
amortize. They should recognize it and they should amortize it. 
But their track record is not great.
    Go ahead.
    Mr. Bloom. Yes. I think, as I said, the Service needs to 
take seriously the promises that have been made and it needs to 
have a plan to honor them. The precise, right period for 
amortization, I think, needs to be thought of carefully. I also 
think, candidly, the assumptions used to define the size of the 
liability needs to be looked at carefully. I think the 
investment of the assets that go behind the liability need to 
be looked at carefully.
    I would not, Senator, focus on simply one issue. A duration 
of amortization is critical but I think you need to ask 
yourself, holistically, what is a burden that this organization 
can bear so that, over time, it can meet this promise, because 
it is critical that it meet this promise without asking for 
help from the taxpayer. But it has to do it in the context of 
an accurate analysis of what the obligation is, it has to do it 
with a modern way of thinking about its assets, and it has to 
do it cognizant of the fact that it would be a very rare 
company that prefunded all of its retiree obligations.
    Senator Carper. That is good advice.
    Mr. Martinez, please, and then I am way out of time. Thank 
you, Mr. Chairman.
    Mr. Martinez. It is a very complex issue. In the corporate 
world they do recognize the liability but they do not fund it, 
so there is a charge to the profit and loss (P&L) as a non-cash 
charge, and it creates a liability on the balance sheet and 
then it gets amortized as you pay in the future.
    Most companies now are trending toward having no retiree 
benefits----
    Senator Carper. Yes.
    Mr. Martinez [continuing]. And basically what they do is 
integrate it into Medicare. Some companies issue supplemental 
plans or some other form of health reimbursement accounts to 
help that. Some do not. FedEx, January 1, 2018, stopped 
recognizing, or froze its plans for retiree benefits.
    So the USPS has to deal with the mandate of the Federal 
Government and how it treats its retirees, yet it has to 
compete and generate its own revenues. There is a disconnect 
there.
    I would like to understand more what flexibility the USPS 
has to restructure that liability, so as not to impact the 
existing retirees. Any plan would have to take into account 
those who have been there and those who were promised what they 
were promised, and deal with that. But it is a question as to 
whether going forward, for new employees, et cetera, the plan 
should be different. The corporate world is moving to the 
Medicare Plus or no retiree benefits recognition.
    If we are going to compete on the competitive market side, 
and we have 7 percent of revenues going into retiree benefits, 
as that chart shows, and FedEx has none, that is pretty 
uncompetitive right there. So all of this has to be balanced 
out.
    Senator Carper. A number of us agree with you on the idea 
of Medicare integration. I think that is part of the solution. 
You give us a nice roadmap and hopefully you will have a chance 
to actually help refine it and to implement it going forward.
    I just want to say to James Crowell, are you Army?
    Mr. Crowell. Yes, sir.
    Senator Carper. Retired Navy captain. Navy salutes you. And 
thank you for your service and good luck to both of you. Thank 
you. I thought your answers to the questions today were almost 
as good as your opening statements. Thank you.
    Senator Lankford. Great. Gentlemen, thank you again.
    The nominees made financial disclosures and provided 
responses to biographical and pre-hearing questions.\1\ 
Submitted by the Committee, without objection.\2\ This 
information will be made part of the hearing record,\3\ with 
the exception of the financial data, which is on file and 
available for public inspection in the Committee offices.\4\
---------------------------------------------------------------------------
    \1\ The information for Mr. Bloom appears in the Appendix on page 
37.
    \2\ The information for Mr. Martinez appears in the Appendix on 
page 98.
    \3\ The information for Mr. Crowell appears in the Appendix on page 
149.
    \4\ The information for Mr. Park appears in the Appendix on page 
179.
---------------------------------------------------------------------------
    The hearing record will remain open until 5 p.m. tomorrow, 
April 3, for the submission of statements and questions for the 
record.
    Thanks again, gentlemen, for the service to get to this 
spot, and we will look forward to getting you actually into 
that seat and getting you busy in the days ahead.
    With this, the hearing is adjourned.
    Mr. Martinez. Thank you, Senator.
    Mr. Crowell. Thank you, Senator.
    [Whereupon, at 3:56 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
